           U.S. Department of
                                                   Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   INFORMATION: Review of the RESULTS                       Date:    July 15, 2005
           Multiple-Award Procurement Program
           Project Number: 05F3029F000

  From:                                                          Reply to
           Theodore P. Alves                                     Attn. of:   JA-20
           Principal Assistant Inspector General
             for Auditing and Evaluation
    To:    Federal Aviation Administrator

           In response to a request from the Chairman for the Senate Committee on Finance and
           the Chairman for the Senate Subcommittee on Federal Financial Management,
           Government Information, and International Security, we plan to review the Federal
           Aviation Administration’s (FAA) use of multiple-award umbrella procurement
           programs to acquire contract support services. Because of the magnitude of these
           procurement programs, we will focus on the RESULTS procurement program in this
           audit and review other FAA procurement programs later.

           The RESULTS procurement program was established in 2002 and is managed by
           FAA’s Logistics Center in Oklahoma City, Oklahoma. Under the RESULTS
           procurement program, FAA has awarded over $552 million of contract services to a
           group of pre-qualified contractors. One of the contracts awarded was to support
           FAA’s Military Operations (MILOPS) office. On May 13, 2005, the Chairman for
           the Senate Committee on Finance requested our office to do an audit of this contract
           because of allegations of potential fraud, waste, and abuse. In addition to MILOPS,
           we will select other contracts awarded under the RESULTS program for review.

           Our objectives are to determine whether (1) the RESULTS program is properly
           established and managed, including the process used to pre-qualify over
           140 contractors; (2) contract work is properly competed with well defined scope and
           controlled scope changes; and (3) contracts are properly administered to ensure
           satisfactory performance and valid payment requests.
                                                                           2


We plan to start this audit in July 2005. We will contact your audit liaison to
schedule an entrance conference date to discuss the planned review. If you have
questions, please call Rebecca Leng, Deputy Assistant Inspector General for
Information Technology and Computer Security, or Terrence Letko, Program
Director, at (202) 366-1496.


                                       #

cc: FAA Deputy Administrator, ADA-1
    FAA Chief of Staff, AOA-2
    FAA Chief Operating Officer, ATO-1
    Vice President for Acquisition & Business Services, AJF-6
    FAA Assistant Administrator for Region and Center Operations, ARC-1
    FAA Audit Liaison, ABU-100
    Deputy Assistant Secretary for Budget and Programs, B-2
    OST Audit Liaison, M-1
